HHS/OIG, Audit -"Ineligible Medicare Payments To Skilled Nursing Facilities Under the Administrative Responsibility
of Cooperativa de Seguros de Vida de Puerto Rico,"(A-05-04-00062)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments To Skilled Nursing Facilities Under the Administrative Responsibility of Cooperativa
de Seguros de Vida de Puerto Rico," (A-05-04-00062)
January 19, 2005
Complete
Text of Report is available in PDF format (175 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our audit was to determine the extent of ineligible Medicare Skilled Nursing Facility (SNF) payments,
attributable to Cooperativa de Seguros de Vida de Puerto Rico (Cooperativa), contained in a database of payments made under
the administrative responsibility of nine Medicare Fiscal Intermediaries (FIs).  Our review of the database estimated
that $25,690 of ineligible SNF payments were made under the administrative responsibility of Cooperativa during calendar
years 1997 through 2001.  The overpayments occurred due to the absence of an automated cross-check within the Centers
for Medicare and Medicaid Services Common Working File and the FIs claims processing systems, verifying that a three consecutive
day inpatient hospital stay occurred prior to SNF admission.  Cooperativa has been instructed by the CMS not to seek
recovery of overpayments identified during our audit and as a result, no recovery activities have been initiated.